<html>
<title> - THE U.S.-SAUDI ARABIA COUNTERTERRORISM RELATIONSHIP</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


             THE U.S.-SAUDI ARABIA COUNTERTERRORISM RELATIONSHIP

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2016

                               __________

                           Serial No. 114-162

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-256PDF                      WASHINGTON : 2016                         
                                 
________________________________________________________________________________________                                
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d4a5d426d4e585e594548415d034e424003">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                              ---------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Tim Roemer, Ph.D. (former 9/11 Commissioner).......     6
Mr. Simon Henderson, director, Gulf and Energy Policy Program, 
  The Washington Institute for Near East Policy..................    16
Ms. Karen Elliot House, senior fellow, Belfer Center for Science 
  and International Affairs......................................    21
Daniel L. Byman, Ph.D., professor, Edmund A. Walsh School of 
  Foreign Service, Georgetown University.........................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Tim Roemer, Ph.D.: Prepared statement..............    10
Mr. Simon Henderson: Prepared statement..........................    18
Ms. Karen Elliot House: Prepared statement.......................    23
Daniel L. Byman, Ph.D.: Prepared statement.......................    28

                                APPENDIX

Hearing notice...................................................    50
Hearing minutes..................................................    51

 
          THE U.S.-SAUDI ARABIA COUNTERTERRORISM RELATIONSHIP

                              ----------                              


                         TUESDAY, MAY 24, 2016

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. The witnesses 
will take their seats. Without objection, all members may have 
5 days to submit statements, questions, and extraneous 
materials for the record subject to the length limitation in 
the rules.
    Today, the United States and Saudi Arabia work together on 
maintaining security in the Middle East. Despite the 
differences between the two countries, we both face the same 
terrorist enemies that seek our destruction in the post 9/11 
era. Our counterterrorism cooperation with Saudi Arabia has 
increased. According to the Department of Treasury, the kingdom 
has made improvements in enforcing stringent banking rules that 
help stem the flow of money to terrorist groups through Saudi 
financial institutions.
    Saudi Arabia is the co-chair of the Counter-ISIL Finance 
Group, and this group seeks to cut off ISIS from the 
international finance system. Saudi Arabia has launched 
aggressive military campaigns in Syria and Yemen, and while the 
kingdom has taken important steps since 9/11 to counter 
terrorism, it has some room to improve.
    I think we must separate the individuals that live in Saudi 
Arabia and what they do to support financially terrorism, and 
the Government of Saudi Arabia. While the Kingdom of Saudi 
Arabia has adopted strict laws prohibiting terrorist finance, 
there continue to be press reports about Saudi charities and 
individual donors funding ISIS, al-Qaeda, and foreign fighters.
    The Kingdom of Saudi Arabia still spends billions of 
dollars every year exporting the Wahhabi interpretation of 
Islam through its networks of building mosques and schools 
throughout the world including in the United States. Wahhabism 
is a fundamentalist form of Islam that insists on a literal 
interpretation of the Quran. Its 18th century founder Abd al 
Wahhab in seeking to purify Islam taught that apostates--that 
is, Christians and Jews and some Muslims--should be persecuted 
and in some cases killed.
    So we should not be surprised that some people practice, 
when they are taught Wahhabism, violence. While not all 
followers of Wahhabism are terrorists, many argue that Wahhabi 
followers are more easily recruited by terrorist groups.
    ISIS openly follows this strict form of Islam and cites 
Wahhabi clerics, but it does not accept the royal Saudi family 
as legitimate authorities. Some of the Wahhabi ideology has 
been exposed in Saudi textbooks and the U.S. has pushed Saudi 
Arabia to address the problem.
    In 2006, the Ambassador at Large for International 
Religious Freedom John Hanford told Congress the Saudi 
Government would finish its comprehensive revision of textbooks 
by 2008. Here we are 8 years later, and the process is still in 
the future. Where is the new book? As of 2014, high school 
textbooks worldwide contained offensive materials about Jews, 
Christians, and others. For example, a 12th grade textbook 
professes that treachery, betrayal and that annunciation of 
covenants are among the attributes of the Jews. Another 12th 
grade textbook asserts that the punishment for conversion away 
from Islam is execution.
    This is somewhat disturbing, and the Saudi Arabian 
Government needs to be more aggressive in revising these 
textbooks if that is the goal. The same can be said about 
sermons given by Saudi clerics as mosques behind closed doors. 
Researchers have cited hateful messages by clerics that are 
tantamount to incitement.
    Then of course there is the issue that has been brought up 
again regarding counterterrorism prior to 9/11. 9/11 Commission 
reports note that Saudi Arabia was long considered a primary 
source of al-Qaeda funding. There is speculation about the 
extent of the Saudi Government officials in providing help to 
9/11 hijackers, 15 of the 19 hijackers were Saudi nationals.
    Then there is the issue of the 28 missing pages in the 9/11 
report. I have read the 28 missing pages that the public does 
not have access to, and I think the public should have access 
and be able to see those 28 pages. It is my understanding that 
the Saudi Arabian Government also wants those 28 pages 
declassified. I think we must make a distinction to some extent 
between post-9/11 and events that occurred before 9/11.
    If a foreign country, any country, can be shown to have 
significantly supported a terrorist attack on the United 
States, the victims and their families ought to be able to sue 
that foreign country no matter who it is. Like any other issue, 
we should let a jury decide that issue and the damages, if any. 
As a former judge, I am a great advocate in having litigation 
in our courts of law to get justice.
    If our policy is between American victims and also victims 
from other parts of the world regarding 9/11 versus our 
priorities with dealing with foreign countries, I think our 
Government should always come down on the side of victims and 
their families of 9/11, without exception.
    There are issues dealing with foreign countries, but the 9/
11 victims, their families, certainly need justice to occur. 
Some say that this occurred a long time ago and it is time to 
move on with our relationships with foreign countries. Fifteen 
years ago, waiting for justice to occur is too long under our 
system.
    If in fact some other government may have been involved in 
the 9/11 attacks, I am not saying they were or they weren't, 
but part of this hearing is to explore this issue as well. The 
United States national security interest does include working 
with Saudi Arabia, but the national security interest of the 
United States also must include making sure that the victims of 
9/11 have all of the facts of what occurred on that day that 
none of us will forget.
    I will yield to the ranking member from Massachusetts for 
his opening statement.
    Mr. Keating. Thank you, Chairman Poe, for conducting this 
hearing, and I would also like to thank our panel of witnesses 
who bring with them years of experience and knowledge on the 
topic of today, Saudi Arabia.
    For decades, the United States has maintained strong 
bilateral relations with the kingdom. Anchored by U.S.-Saudi 
security cooperation and U.S. concern for global availability 
of Saudi energy, we have engaged the Saudi Government as a 
strategic partner to promote regional security and global 
economic stability.
    However, our relationship is deeper than just shared 
security challenges. It is in both of our countries' interest 
to strengthen this relationship, yet for us to be mindful that 
over the last few years shifts in political and economical 
landscape of the region have shed light on the kingdom's 
domestic policies. Issues such as political reform, education, 
human rights, and religious freedom are now more prominent in 
the U.S.-Saudi relationship than it was in years past.
    There is no doubt these sensitive issues have contributed 
to growing challenges between Washington and Riyadh. In April, 
President Obama met with Saudi officials. While the visit 
allayed concerns like making sure our shared security interests 
remain strong, still, gaps in the fence remain.
    Further complicating the relationship is America's 
increasing energy independence and the recent shale oil boom 
that has produced our imports, increased imports and increased 
our exports when it comes to oil. Saudi Arabia and other OPEC 
members rely on American markets to refine their systems and 
bring to the market heavy sour crude oil.
    As we continue to witness the evolution of this region 
through the lens of the administration's final year, it is 
important that we consider our own objectives. It is the 
responsibility of the United States to keep our foreign policy 
objectives close in mind as we assess our bilateral relations 
with partners and whether they promote or hinder these goals.
    Of particular concern to me is the credibility of our 
shared counterterrorism operations and intentions. While our 
two countries have worked successfully to address 
counterterrorism threats and the financing of those threats 
through intelligence sharing and monitoring compliance, other 
actions may complicate these efforts. For example, Riyadh's 
campaign in Yemen has changed our efforts to combat al-Qaeda in 
the Arabian Peninsula, and domestic counterterrorism efforts 
have directly targeted human rights activists and peaceful 
protestors who have been tried in Saudi in terrorism tribunals.
    I look forward to hearing from our witnesses in regarding 
the future of the United States and Saudi in terms of their 
relationships and how we can work together to align mutual 
goals and promote a more open society. I yield back, Mr. 
Chairman.
    Mr. Poe. I thank the ranking member. The chair will now 
recognize other members for a 1-minute opening statement. The 
chair recognizes Mr. Issa from California for 1 minute.
    Mr. Issa. Thank you, Mr. Chairman, and thank you for 
holding this important hearing today. There are two committees 
that will be looking at the proposal that has come from the 
Senate, this committee and Judiciary. The Judiciary Committee 
has to look, quite frankly, at U.S. law and whether litigation 
against the sovereign nation is appropriate. We as a committee 
have to look at the world. We have to look at the bigger 
question. What if we do this without an affirmative, specific 
foreknowledge of wrongdoing by a representative at a high level 
of the Saudi Government?
    The answer is clear. If we look at it and allow discovery, 
a poking around, a typical plaintiff's trial lawyer look-see, 
then in fact the rest of the world will likely respond. If the 
rest of the world likely responds, there is no question but 
that actions of U.S. persons or U.S. entities, including but 
not limited to our intelligence community, will have us in 
courts around the world.
    It is our responsibility both here at this committee and 
when looking at highly classified documents to reach a 
conclusion of whether or not this case should be allowed to go 
forward before allowing discovery outside of the U.S. 
Government. I thank the chairman for his yielding, and yield 
back.
    Mr. Poe. I thank the gentleman from California. The chair 
recognizes another gentleman from California, Mr. Sherman, for 
an opening statement.
    Mr. Sherman. Our laws already provide an exception to 
sovereign immunity for those who are state sponsors of 
terrorism. It seems only a slight increase in that to say it 
should apply if the plaintiffs are able to show that the 
foreign government engaged in terrorism here in the United 
States.
    But as important as it is to have our judicial system work 
for the benefit of victims, it may be that it is up to the 
United States to compensate the victims as we have to some 
degree. And the most important thing is not punishing those who 
committed or supported this act, but preventing the next act of 
terrorism.
    What concerns me is the Saudi Government comes to us and 
says they are our friend and we should protect them from this 
statute, while funding every day the Wahhabi mullahs who not 
only preach orthodox practice of Islam but preach violent 
murder against those who they disagree with. And it is time for 
Saudi Arabia to come clean. They can't say they don't support 
terrorism. All they do is fund at the hundreds of millions of 
dollars a year those who plant the seeds of terrorism around 
the world. I yield back.
    Mr. Poe. I thank the gentleman. The chair recognizes the 
gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman, for holding this 
important hearing on the critical relationship between the 
United States and Saudi Arabia.
    For over 70 years, both countries have had a close economic 
partnership beginning with the establishment of the Arab 
American Oil Company, Aramco, by the Standard Oil Company in 
1944.
    In recent decades, Saudi Arabia has made substantial 
progress in their counterterrorism efforts post 9/11. They have 
strengthened financial policies aimed at countering terrorist 
financing and worked with the United States and other countries 
to increase transparency and information sharing. They have 
also imposed harsh sentences on Saudi nationals who attempt to 
join foreign terror groups and have conducted military 
operations against the Islamic State and other terrorist 
organizations in the region. These are all important steps in 
working toward peace and security for the region.
    As we work together to combat Islamic extremism, we must 
keep in mind the considerable influence that Saudi Arabia has 
over the ideologies and religious practices that will guide the 
Middle East for years to come. I look forward to hearing from 
our witnesses on the future of U.S.-Saudi Arabia terrorism 
relationship. Again, I appreciate the leadership of our 
chairman, Chairman Judge Ted Poe, and I yield back.
    Mr. Poe. I thank the gentleman. The chair recognizes the 
gentleman from California, Mr. Rohrabacher, for 1 minute.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, for 
holding this hearing. It is long overdue. How many Americans 
have to die? How many of our innocent citizens are blown up or 
are murdered from a terrorist act that we are ignoring, 
intentionally ignoring who is financing those acts.
    I think it is clear to all of us who have been active in 
Washington over the years that the Saudis and the Saudi royal 
family have been right up to their eyeballs in terrorist 
activity and supporting the terrorist activity of radical 
Islamic forces in the Middle East. It is up to us to call the 
truth, to say the truth. We are not going to correct the 
situation. It won't get better unless we are willing to step up 
and basically let the American people know who is the bad guy 
and who is the good guy in this age of terrorism.
    Mr. Poe. I thank the gentleman. Without objection, all 
members may have 5 days to submit statements, questions, 
extraneous materials for the record subject to the length 
limitation in the rules. And without objection, all witnesses' 
prepared statements will be made part of the record.
    I ask that each witness keep your presentation to no more 
than 5 minutes. I will introduce each witness. I do want to 
thank all four of you for being here early, on time before we 
ever started, supposed to start this hearing, but as you all 
know votes got in the way. So I do appreciate your patience.
    Ambassador Tim Roemer is a former Member of Congress and a 
former U.S. Ambassador to India. While he was in Congress he 
sat on the House Intelligence Committee and was a member of the 
9/11 Commission.
    Mr. Simon Henderson is the Baker Fellow and director of the 
Gulf and Energy Policy Program at Washington Institute for Near 
East Policy. He has written two studies of the Saudi royal 
family, both of which were published by The Washington 
Institute.
    And Mrs. Karen Elliot House is currently a senior fellow at 
the Belfer Center for Science and International Affairs at 
Harvard's Kennedy School of Government. She is the author of 
the book on Saudi Arabia: Its People, Past, Religion, Fault 
Lines--and Future.
    And Dr. Daniel Byman is a professor at Georgetown 
University's School of Foreign Service. He has served on the 9/
11 Commission staff and has testified numerous times before 
this committee.
    Ambassador Roemer, we will start with you. You have 5 
minutes.

   STATEMENT OF THE HONORABLE TIM ROEMER, PH.D. (FORMER 9/11 
                         COMMISSIONER)

    Mr. Roemer. Thank you very much. Mr. Chairman, Mr. Ranking 
Member Keating, fellow members, I ask unanimous consent the 
entirety of my statement be entered into the record, and I 
would recognize a special guest I have here today, my son 
Matthew Roemer who just graduated from Wake Forest University.
    Mr. Poe. Without objection----
    Mr. Roemer. Thank you, Mr. Chairman.
    Mr. Poe [continuing]. Your comments will be made part of 
the record. And we do recognize your son who is a recent 
graduate of Wake Forest.
    Mr. Roemer. Thank you, sir.
    Throughout the history of our engagement with the kingdom 
our relationship with Saudi Arabia has been strategically 
crucial yet a challenging one and at times a very demanding 
one. Saudi Arabia sits at the crossroads of so many critical 
issues for American foreign policy interests--terrorism, Iran, 
Middle East stability, energy, and human rights.
    Serving on the 9/11 Commission, we noted that the U.S.-
Saudi relationship had been in the dark for too long. Both 
countries' governments recognized the value in working closely 
together, but neither was willing to make the case for the 
relationship in public to argue for its merits and its 
shortcomings.
    The 9/11 Commission recommended over 10 years ago, ``The 
problems in the U.S.-Saudi relationship must be confronted 
openly. It should include a shared interest in greater 
tolerance and cultural respect translating into a commitment to 
fight the violent extremists who foment hatred.'' Ten years ago 
we said that.
    Today we still struggle to talk directly about our 
relationship with the kingdom. In light of this fact, I would 
like to thank this committee for holding this hearing on this 
subject bringing greater transparency and clarity to American 
diplomacy and to the American people.
    The Saudis pose a number of challenges for the United 
States and its foreign policy. Saudi society still continues to 
produce a disturbing number of recruits and supporters for 
terrorist groups around the world including in Syria. Moreover, 
according to a front page article in the New York Times just 
this past Sunday titled, ``How Kosovo Was Turned into a Fertile 
Ground for ISIS,'' Saudi influence and money has transformed 
this once tolerant Muslim society into a ``font of Islamic 
extremism and pipeline for jihadists.''
    Domestically, the Saudi Government still continues to have 
a poor record on human rights. The Saudis are fighting a war in 
Yemen with goals different than the United States, thus 
creating some problems for the United States in the Middle 
East. These are signs, ladies and gentlemen, that the United 
States and Saudi Arabia still have much work to do in this 
crucial partnership; and it is a partnership.
    I believe that our relationship with the kingdom is crucial 
to our interests in the Middle East. Addressing our concerns 
diplomatically and privately is often the appropriate path. As 
a former diplomat we often did this behind closed doors, 
however, sometimes we must honestly and openly confront our 
legitimate differences. Friends and allies cannot bury their 
disagreements. They must frankly address them and 
counterterrorism must be at the top of the American and the 
Saudi list.
    Counterterrorism. After 9/11, the news that 15 of the 19 
hijackers had come from Saudi Arabia led many Americans to 
question whether the Saudis were the ally we thought them to 
be. They continue to be our ally, but an embattled one. 
Furthermore, we found that Saudi Arabia was fertile ground for 
fundraising and support for al-Qaeda. In the 9/11 Commission 
report we did not discover high level and direct Saudi 
Government involvement in the plot, but wrote that Saudi Arabia 
had been a problematic ally in the fight against terrorism.
    There is a glaring contrast some days and weeks and months 
between high level Saudi legitimate cooperation in helping the 
United States uncover plots, which is critical for us, but it 
often directly conflicts with the society and culture that 
sometimes exports extremism and intolerance.
    There has been recent media attention to these 28 pages 
that Judge Poe just cited, classified information actually 
written by Congress in the Joint Intelligence Committee, but 
was reviewed and investigated by the 9/11 Commission. I served 
on both of these panels. I am strongly in favor for 
declassifying this information as quickly and as soon as 
possible. For national security reasons the 9/11 families 
deserve it, the American people deserve it, and justice 
deserves it.
    We have the right as Americans to transparency and 
sunlight, not the darkness that conspiracy theories thrive on 
in today's cynical political climate. While the 28 pages are 
important to declassify--we need to get those out--it is 
crucial to understand the unclassified 9/11 Commission report, 
particularly Chapters 5, 7, and the footnotes where we talk 
about some of the problems that are ongoing today in Saudi 
society to export extremism, fund radical ideology for 
terrorist groups, and supply a stream of jihadists around the 
world.
    We have seen, no doubt, improvements from the kingdom. It 
has created a deradicalization program and is helping to 
reintegrate extremists back into society in a regular fashion. 
Saudi intelligence agencies have worked very closely with their 
American counterparts to share information about threats from 
extremist groups, most notably a tip-off in 2010 which 
reportedly led to the disruption of a plot to bomb U.S. cargo 
planes.
    They also briefly participated in the U.S. war, led against 
the Islamic State, coalition in Syria. According to the most 
recent State Department Country Reports on Terrorism, the 
Saudis have instituted a number of legal reforms to strengthen 
the prohibitions on supporting terrorism.
    These are crucial tools in fighting terrorism, but 
sometimes they are not sufficient strategic ones. Saudi Arabia 
has outlawed terrorist groups like the Islamic State and banned 
its citizens from providing financial support to them. Yet 
despite these official acts, studies on the background of 
Islamic State foreign fighters continue to show that Saudi 
recruits are among the most numerous among the group's ranks.
    A recent West Point study confirmed that Saudi recruits 
were in the highest three groups in Syria. The threat of 
extremism cannot be countered by police, intelligence and 
military actions alone. The Saudi Government needs to address 
the threat of radicalization and extremism within its own 
society.
    In all of this we should be cognizant of the fact that the 
Saudis themselves are threatened by extremism and have suffered 
greatly from it. In 2003, Saudi al-Qaeda terrorists unleashed a 
campaign of attacks in that country that shocked the kingdom. 
The Saudis took immediate steps to address this.
    I want to speak for a moment, Mr. Chairman, about Iran. 
Iran's support for terrorism is a serious threat to Middle East 
stability, American interests, and American allies in the 
region. In the face of these threats we must make sure that 
Saudi Arabia, the focus of so much of Iran's attention and 
ambitions, is able to resist and appropriately confront 
Tehran's attempts to influence the region.
    How we manage this makes vital difference to our friends 
and allies in the Middle East. We cannot allow Saudi Arabia's 
justified fears of its neighbor to lead to deeper disagreements 
within and with the United States. While we work together to 
counter some of Iran's nefarious efforts to stoke instability 
in the region, this must not distract from the fight against 
terrorist threats like al-Qaeda and the Islamic State.
    Mr. Chairman, I will skip through some comments on energy. 
I want to conclude on a human rights topic. Congress helped 
create the United States Commission on International Religious 
Freedom in 1998 in order to promote the fundamental human 
rights of people to worship and observe their faith in peace.
    Since its creation, the Commission, at the urging I might 
add of Congress, has done valuable work uncovering examples of 
intolerance, anti-Semitism, and incitement to violence in Saudi 
textbooks provided to schools in developing countries all over 
the world. The Islamic State has even discovered and utilized 
this material in some of their textbooks to reflect their world 
view. One scholar has even noted the use of this material in 
schools under the Islamic State's control in Raqqa, Syria.
    While the kingdom has made some progress in revising its 
textbooks and curtailing extremist material, and we note that 
and encourage that, this Commission notes that the Saudi 
Government still includes highly offensive references in their 
high school textbooks.
    So to conclude, members of this important subcommittee, 
having served in both the legislative and the executive 
branches of American Government, I have seen the important role 
that congressional oversight and your counsel plays in shaping 
American foreign policy.
    The U.S.-Saudi relationship is an area where Congress must 
continue to play an important role with the executive branch 
and for the American people. Congress should continue to hold 
oversight hearings, insist on better progress on 
counterterrorism results from Saudi Arabia, and discuss the 
human rights situation.
    The U.S. Intelligence Community gives credits to Saudi 
Arabia for developing and cooperating on counterintelligence 
and helping stop specific attacks. We are grateful for this. 
While this is true, we must see more consistent results from 
Saudi Arabia on preventing the export of intolerance and 
extremism around the world; we must work together to curtail 
the financial support for al-Qaeda and terrorist groups; we 
must see more results on reducing the Saudi supply of the high 
number of foreign fighters in Syria.
    Resetting and rebuilding this decades-long strategic 
partnership with Saudi will be a foreign policy priority for 
the United States in 2017. And I thank the chairman and ranking 
member and members for my testimony.
    [The prepared statement of Mr. Roemer follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Poe. Thank you, Ambassador.
    Mr. Henderson.

  STATEMENT OF MR. SIMON HENDERSON, DIRECTOR, GULF AND ENERGY 
 POLICY PROGRAM, THE WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Henderson. Thank you. Chairman Poe, Ranking Member 
Keating, distinguished members of the committee; it is an honor 
and privilege to appear before you today. I have written about 
Saudi Arabia, particularly the royal family known as the House 
of Saud, for more than 20 years. Arguably, I publish more about 
Saudi Arabia, ten analyses so far this year, than anyone else. 
I also have a reputation for detailed reporting which probably 
explains why I have never been to Saudi Arabia. I have never 
been given a visa to visit there although I have traveled 
widely in the rest of the Middle East.
    Saudi Arabia sees itself as the leader of the Islamic 
world, a leader if not the leader of the Arab world, and by 
virtue of it being the world's largest oil exporter, a leader 
of the energy world. Of these leadership roles, it is the 
Islamic one which is from a Saudi perspective by far the most 
important. Within the kingdom are Islam's two holiest places, 
Mecca and Medina. Ensuring the safety of Muslim pilgrims who 
thereby recognize Saudi leadership is a paramount concern.
    This emphasis on Islam was a feature of a memorable memo 
written by a departing British Ambassador 32 years ago. He 
identified three principal features of the kingdom. Islam was 
one of them, insularity was another--it is a very closed 
society, or was at that point--and he also noted that the 
kingdom was incompetent, a feature which I often ask friends 
who have visited the kingdom whether it is still valid or not 
and they suggest that it is. And that is a word which perhaps 
partly explains our concern about Saudi counterterrorism 
efforts.
    Apart from Islam, a major influence on Saudi thinking is 
history, particularly recent history. I would argue that the 
two most important events in Saudi minds both date back to 
1979. In February of that year, the Islamic Revolution in Iran 
overthrew the Shah and brought to power a clerical regime of 
Shiite Muslims, the majority faith in Iran. As Shiites, they 
are historical rivals of Sunni Muslims such as Saudis. The 
ethnic difference of Iranians mostly being Persians rather than 
Arabs is also significant.
    Later the same year, in November 1979, the Grand Mosque in 
Mecca was seized by Sunni militants, contesting the legitimacy 
of the House of Saud. It was 2 weeks before Saudi soldiers, 
with the embarrassingly necessary assistance of French special 
forces, regained control. Since then, the House of Saud has had 
to fight on two contradictory fronts: Countering regional 
Iranian mischief including support for the kingdom's own 
minority Shiite community, while also dealing with Sunni 
extremists including potential jihadists, at home.
    The principal challenge for the U.S.-Saudi counterterrorism 
relationship is that right now there is more than the usual 
amount of differences on emphasis and direction which can apply 
to even close allies. It has to be significant that in the 
recent profile of President Obama in The Atlantic, Saudi Arabia 
was criticized more severely and more often than any other 
country, ally or not.
    A new and challenging dimension in the relationship was 
introduced a year ago when King Abdullah died and was replaced 
by King Salman. Three months after that the line of succession 
changed. The Crown Prince was sacked and he was replaced by the 
Deputy Crown Prince Muhammad bin Nayef, and more significantly, 
the number three slot of the Deputy Crown Prince was taken by 
King Salman's younger son Muhammad bin Salman who is just 30 
years old.
    At the moment, we are facing an uncertain future. 
Washington's principal partner on counterterrorism issues for 
the last decade or so, Muhammad bin Nayef, has been 
marginalized but the need for an effective counterterrorism 
partnership is as great as ever. Also, Riyadh is distrustful of 
Washington's approach to what the Saudi sees as at least half 
of the terrorism problem, Iran.
    In these circumstances, the United States cannot take for 
granted its current counterterrorism partnership with Saudi 
Arabia. Despite differences and public insults, the 
relationship needs to adapt so the substance of it can be 
sustained during the continuing period of political uncertainty 
and especially within the House of Saud and where the real 
power lies. Thank you.
    [The prepared statement of Mr. Henderson follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                              ----------                              

    Mr. Poe. Thank you, Mr. Henderson.
    Ms. House. Microphone.

  STATEMENT OF MS. KAREN ELLIOT HOUSE, SENIOR FELLOW, BELFER 
          CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS

    Ms. House. Oh, excuse me, I am saying in my best Texas 
accent, Mr. Chairman and Ranking Member Mr. Keating.
    Mr. Poe. And I can understand you a whole lot better than I 
can Mr. Henderson, that is for sure.
    Ms. House. Yes, I knew you wouldn't need a translator for 
me. The others may.
    I am going to focus on Saudi Arabia itself because much is 
changing in the kingdom these days. A new generation of young 
Saudi leaders is now in charge after nearly six decades of rule 
by aged and increasingly infirm sons of the founder. Also 
changing, unfortunately, is the U.S.-Saudi relationship which 
was built on the tacit understanding of Saudi oil for U.S. 
support and protection.
    On my latest visit there in January, the most recent of 
dozens of visits over the last 38 years--I began going as a 
reporter for the Wall Street Journal--I found Saudi royals and 
a lot of Saudi citizens, the number one question they wanted to 
ask is, is the U.S. policy of avoiding involvement in Middle 
East problems permanent or will a new administration, a new 
U.S. President again exert traditional leadership in the Middle 
East including support for our Saudi ally?
    Obviously, with the Presidential election some months away 
we don't know what the next administration's policy would be, 
but the point I want to make is I believe it is clear already 
that the future of Saudi Arabia with this new generation of 
leaders for some of the reasons Simon mentioned, with this new 
generation of leaders in charge is of critical importance to 
us.
    Despite the fact that the U.S. produces more oil than any 
time in 30 years, we are still dependent on the global oil 
market even though only 8 percent of our oil comes from Saudi 
Arabia. And secondly, obviously as been mentioned by the 
chairman and others, Saudi Arabia is the wellspring of this 
religious Wahhabi philosophy that motivates at least some of 
the jihadi hatred that seeks to destroy the Western way of 
life. So for those reasons, I think it is critically important 
that U.S. policymakers understand the forces at work in the 
kingdom.
    Support for Saudi stability and Israeli democracy have been 
two of the key U.S. goals in the Middle East, certainly in my 
whole lifetime, and in my view they must remain so. The new 
generation of leadership in Riyadh has a vision--I stress the 
word vision--to transform the Saudi economy and to some extent 
its society that will benefit, in my view, not only Saudi 
citizens but also potentially strengthen U.S.-Saudi relations 
if we are wise enough to seize that opportunity.
    It is not U.S. influence that has encouraged these changes, 
in my view, but we should welcome and support them. The new 
leadership, as Simon said, includes Crown Prince Muhammad bin 
Nayef, the individual in charge of combating terrorism, and I 
can assure you that Saudis too focus on the need to retain 
Muhammad bin Nayef as the man that in their view has protected 
them from terrorism. There is not much concern about ISIS in 
Saudi Arabia, and the reason is Muhammad bin Nayef. From 
everything I hear cooperation with the U.S. on anti-terrorism 
is deemed to be good both on our side and theirs where he is 
concerned.
    And to the extent that rich Saudis give money as do other 
rich people in the Persian Gulf to help finance terrorism, this 
does not, in my view, constitute official Saudi policy but 
rather evades it. They understand, whatever the case on 9/11, 
they understand now that terrorism is a threat to them too.
    The new Deputy Crown Prince that Simon mentioned and the 
significance of both of these young men is that they are 
grandsons of the founder. So one is 55 and the Deputy Crown 
Prince is only 30. He is responsible for the country's defense, 
its economy, and Aramco. Literally, not since his grandfather 
Ibn Saud has a 30-year-old prince had the amount of power that 
he has. Last month he laid out what I think is a quite 
remarkable vision to sharply reduce dependence on oil; to 
create jobs for the 70 percent of the Saudi population that is 
under 30 years of age and many of them unemployed; to open 
opportunities for, as he put it, all Saudis which is a code 
word for including women; and he even on the record came out 
for ``more moderate brand of Islam.''
    I stress this is a vision and not a plan, but having met 
with him myself in January in Riyadh, I do think that he is 
serious and I am happy to answer questions about that if you 
have any.
    Mr. Poe. Sum up your remarks, if you would, Ms. House.
    Ms. House. Pardon. So I will skip Iran. I do not believe 
the Saudis are entirely paranoid when they look at what Iran is 
doing in the region, which is antithetical to their interests 
and I would argue to ours too.
    So I will close by just saying it is not too late for a new 
U.S. administration to improve the relationship with Saudi 
Arabia, but it will require being honest about the fact that we 
don't have the same values, stressing a point the Ambassador 
made, and we do have a common strategic interest and that is a 
stable Persian Gulf that is free of any other hegemonic 
domination. And in my view we should seize this opportunity to 
support economic reform in Saudi Arabia and to rebuild trust 
with the Saudis by being honest about the difference, because 
instability in Saudi Arabia in a Middle East that is already 
completely unstable is in no one's interest. Thank you.
    [The prepared statement of Ms. House follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ----------                              

    Mr. Poe. Dr. Byman.

STATEMENT OF DANIEL L. BYMAN, PH.D., PROFESSOR, EDMUND A. WALSH 
        SCHOOL OF FOREIGN SERVICE, GEORGETOWN UNIVERSITY

    Mr. Byman. Chairman Poe, Ranking Member Keating, and 
members of this distinguished subcommittee, thank you for this 
opportunity to appear before you again and testify today.
    Saudi Arabia has made considerable progress on 
counterterrorism in the last 15 years, but it still has a long 
way to go. Before the September 11th, 2001 terrorist attacks 
and, really, until al-Qaeda began to attack the kingdom 
directly in May 2003, Saudi Arabia was often uncooperative on 
counterterrorism. The Khobar Towers investigation often 
encountered significant problems working with the Saudi 
Government; al-Qaeda-linked individuals were often not 
investigated or at least those investigations were not shared 
with U.S. officials; and more broadly, individuals in Saudi 
Arabia, some of them linked to the government, supported an 
array of causes linked to Kashmir, Afghanistan and elsewhere, 
causes on which al-Qaeda also drew.
    Since 2003, as others have said, there has been a 
tremendous change. Al-Qaeda brought the war home to Saudi 
Arabia and Saudi Arabia responded very strongly to the point 
where the 9/11 Commission declared in 2004 that the kingdom of 
Saudi Arabia is now locked in mortal combat with al-Qaeda. We 
have seen an aggressive effort to disrupt cells and also some 
progress on terrorism financing. We have seen intelligence 
sharing and significant penetrations, Saudi Arabia has served 
as a drone base for operations in Yemen, and this is 
invaluable.
    The Islamic State, like al-Qaeda, is considered a top 
security threat by the Saudi regime. The Islamic State itself 
has declared Saudi Arabia to be an enemy, and its propaganda 
shows a black flag flying above Mecca. Islamic State terrorists 
have attacked mosques of Shia Muslims in the kingdom and also 
Saudi security officials, and the Saudi Government has arrested 
over 1,000 suspected Islamic State supporters, foiled several 
attacks, and is trying to take effort to stop people from 
traveling to fight.
    Complicating this picture, however, is that support for 
terrorism in Saudi Arabia is often difficult to distinguish 
between the government, important organizations within society, 
and individuals acting against the will of the government. The 
Saudi regime's legitimacy is tied directly to the clerical 
establishment and since, really, the 1970s and perhaps before 
has been deeply engaged in supporting an array of Islamic 
causes around the world.
    It has spent tens of billions of dollars on this, and as 
Ambassador Roemer mentioned, the article in the New York Times 
on Bosnia is almost a classic example of the sort of support we 
see where the Saudi Government was supporting an array of 
mosques and other institutions that fostered extremist 
teachings.
    At times the regime has supported these institutions, at 
times it has deliberately ignored them, at other times it has 
cracked down so there has not been a single consistent 
response. And because these figures are often important for 
regime legitimacy, it is politically very difficult for them to 
do so.
    We still see support for a number of radical groups around 
the world. I would single out Pakistan in particular as a place 
where this is still commonplace. The campaign in Yemen against 
the Houthis there has indirectly aided al-Qaeda in the Arabian 
Peninsula by giving them free space in which to operate.
    Now the good news is, senior Saudi preachers working with 
the government have urged individuals not to go to terrorist 
groups, not to fight in Iraq and Syria, but as has been 
mentioned we see many preachers, many religious institutions 
condemning other Muslims in particular, also being very 
critical of non-Muslims and at times quite anti-American. And 
much of this in the United States at least would be free 
speech, right. It is not speech I like, but it would be free 
speech.
    But nevertheless, it creates a fertile soil around the 
world of indoctrination and it plays directly into the 
narrative that the Islamic State pushes that it is defending 
true Islam against a host of enemies including many within the 
Muslim world.
    I will conclude simply by saying that the United States has 
very deep differences with Saudi Arabia. These involve for 
example women's rights, homosexuality, religious freedom, 
freedom of speech--these are deep and fundamental differences. 
At the same time, Saudi Arabia is a vital partner on 
counterterrorism. And one of the difficulties in any policy is 
walking this line between a vital partner yet one who is more 
partner than friend. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Byman follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                              ----------                              

    Mr. Poe. I thank all of our witnesses for their testimony, 
and I recognize myself for 5 minutes of questions. I will make 
this comment. It is obvious that Saudi Arabia acts in its own 
interest. Not necessarily that is a bad thing, but countries 
should act in their own best interest including the United 
States. We should act in our best interest.
    Regarding the 9/11 Commission report, the 28 classified 
pages, I would like each of you just to give me a yes or no on 
this. Should those 28 pages be declassified in your opinion? 
Ambassador, you have already said.
    Mr. Roemer. I am strongly in favor of declassifying the 28 
pages as soon as possible, Mr. Chairman.
    Mr. Poe. Mr. Henderson.
    Mr. Henderson. Since you limit me to a yes or no answer, 
the answer is yes.
    Mr. Poe. Thank you.
    Ms. House.
    Ms. House. As a journalist my answer is obviously yes.
    Mr. Poe. And Dr. Byman.
    Mr. Byman. Yes, Mr. Chairman.
    Mr. Poe. As mentioned in your testimony, and many members 
have talked about JASTA and the Senate unanimously passing 
legislation last week, the bill doesn't mention any governments 
but it says that the bill makes a foreign government that 
provides tangible support to terrorists who carry out an attack 
on the United States subject to the jurisdiction of an American 
courts. Do you think that is a good idea, Ambassador?
    Mr. Roemer. Mr. Chairman, I would put my former congressman 
hat on, but also try to talk a little about my hat as a former 
diplomat. I am also strongly in favor of the Senate bill. I 
think it is a bipartisan bill where Senator Cornyn, who you 
know well, and Senator Lindsey Graham have both put in their 
considerations and narrowed the scope of the bill so that it 
does not stretch across the world and create problems on 
sovereign immunity for other diplomatic situations. It is 
narrowed to this particular issue with Saudi Arabia.
    And Mr. Chairman, I would then say that given that we are a 
country of rules and laws and that if our court thereby finds 
that there was some activity or action by Saudi that 
contributed, let our courts prevail and let justice prevail. We 
should pass this bill.
    Mr. Poe. Thank you, Ambassador.
    Mr. Henderson.
    Mr. Henderson. I agree that our courts should be allowed to 
prevail with the caveat of be careful what you wish for and 
taking such action could lead to Saudi retaliation whether it 
be withdrawing Treasury bills or actions against Americans in 
the kingdom. I don't think that is what we are looking for.
    Mr. Poe. Ms. House, what do you think, should we pass it or 
not? It is our decision that is going to come up next week. The 
Senate did it. What do you think?
    Ms. House. This is beyond my expertise. But as someone who 
travels abroad a lot and in Saudi Arabia, a very closed and 
conservative society, I worry about what Simon just said, be 
careful, and what Congressman Issa raised earlier, the risk of 
retaliation. I mean, I believe vengeance is mine sayeth the 
Lord, I shall repay; that perhaps there is something to be said 
for letting the Lord handle that part of the vengeance on the 
Saudis.
    Mr. Poe. All right.
    Dr. Byman, can you narrow it down to a yes or no?
    Mr. Byman. I will say a caveated yes, sir.
    Mr. Poe. We don't get to caveat vote. It is a yea or a nay 
without an explanation. I am just--what is your opinion of the 
bill?
    Mr. Byman. My opinion of the bill is that as long as the 
bar is very high for what constitutes state support, then it is 
appropriate for the courts to decide this.
    Mr. Poe. A couple of other observations, this hearing, you 
all have talked about a lot of things including Iran, and the 
Saudis have a two-front war apparently or a two-front concern 
in the Middle East. It is terrorism and it is also Iran. And I 
think as Mr. Henderson testified that our concern really is 
terrorism and not so much Iran. The crimes in Syria have cost 
millions of folks to move into Europe. Has the Saudi Arabian 
Government ever taken any Syrian refugees into Saudi Arabia?
    Mr. Henderson. My understanding is that Saudi Arabia along 
with the other Gulf states has not taken refugees in a manner 
that we would recognize; that Europe is taking refugees. I 
believe that at least some of the Gulf states, I am not sure if 
it applies to Saudi Arabia, have been generous in allowing 
Syrians who already live in their countries to bring in 
relatives and family members at this time.
    Mr. Poe. All right, thank you. I think it is somewhat 
interesting that Saudi Arabia does not take Syrian refugees, 
which is a whole different issue. I am going to yield to the 
ranking member from Massachusetts for his questions. Mr. 
Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I wanted to see if you could comment on this. As Ambassador 
Roemer and Dr. Byman have mentioned there has been, you know, 
increases in legal reforms and efforts to really constrain 
financially the ability of people in Saudi Arabia to, you know, 
fund for this extremist activity.
    Now how successful has that been, and if hasn't been as 
successful as it should be, then why not? Is it a lack of will 
or are they encountering difficulties just implementing this? 
If you could comment on that because I think it is a 
fundamental question of transparency. They are doing this. They 
are attempting to do it, how effective have they been?
    Mr. Roemer. I would say, Mr. Keating, I hate to sound like 
Harry Truman who talked about economists on the one hand and 
the other hand, but on the one hand you see the Saudis 
cooperating, helping us, cracking down on terrorism, passing 
national laws to try to restrict people from joining up with 
the Islamic State, and on the other hand as we read in the 
recent article in the New York Times, Saudi money and 
government financing for more jihadis going from Kosovo to 
Syria.
    We need both the Saudi hands working together with the 
United States on counterterrorism as a principal concern along 
with our other strategic objectives, which are Middle East 
stability, which are making sure that Iran cannot do us harm 
through terrorism, through promoting human rights and through 
some of the other key issues that we have mentioned here.
    I would also say, Mr. Keating, that our relationship with 
the Saudis, while it is difficult right now on this particular 
issue, we have had difficulties with them and they have had 
difficulties with us before. They were not in support of the 
U.S. invading Iraq in 2003. They were not in favor of the U.S. 
negotiating President Obama's nuclear deal and kicked back 
vociferously about that. They were not, you know, for Harry 
Truman recognizing Israel so quickly. So we can get through 
this, but I am glad that counterterrorism is front and center 
today.
    Mr. Keating. Dr. Byman, just quickly. Has it been effective 
and if not why?
    Mr. Byman. It has been somewhat effective. We have seen 
groups in Chechnya run out of money because of a decrease in 
Saudi support. The Islamic State advised its supporters in the 
kingdom to channel money through Kuwait because the efforts in 
the kingdom were extensive enough to be disruptive.
    But a number of causes still enjoy considerable domestic 
legitimacy. Again, I mentioned Pakistan. And as a result, you 
can give to groups that are kind of one level out from the most 
radical but the individuals involved often cross over. Part of 
it is simply technically very hard, but I think part of a 
problem is a deep political will issue to go after the entirety 
of the problem.
    Mr. Keating. Thank you. Just quickly, I think the panel has 
done a great job covering as time permits a wide array. But I 
want to ask you this question if you could just answer it 
briefly because of time, where do you see Saudi Arabia 10 years 
from now particularly in terms of the U.S.?
    Mr. Henderson. Saudi Arabia in 10 years' time will, I 
think, be very much recognizable as the Saudi Arabia of today. 
I don't anticipate any revolution, any emerging republic to 
replace the royal family.
    What I don't know is who will be king of Saudi Arabia then, 
when the transition will occur, and under what circumstances it 
will occur. This is very different from the way our knowledge 
of Saudi Arabia looking backwards over the last 30 or 40 years 
where there was a predictability to the whole thing. With the 
eminence, the increasing prominence of the 30-year-old Muhammad 
bin Salman, previous conceptions about how Saudi Arabia is 
going to move forward have to be discarded.
    Mr. Keating. So it is less predictable. Does anyone else 
quickly want to venture any vision?
    Ms. House. It is definitely less predictable, but I think 
it is likely not to be dramatically different. But in my view 
it will have inched forward some. Women are, I know nobody 
likes to hear this, but they are much better educated than the 
men and they are much more willing to work and they are 
managing to get opportunities.
    And the Saudi people, while unhappy with various things at 
home, look around at the total chaos and bloodshed in the rest 
of the Middle East and whatever they think of the Saudi royal 
family now, they prize stability over change.
    Mr. Keating. Thank you very much. I yield back.
    Mr. Poe. I thank the gentleman. Mr. Wilson, South Carolina.
    Mr. Wilson. Thank you, Judge Poe.
    And Ms. House, Saudi Arabia has incredible influence in the 
Islamic world. With the status of reforms to the Saudi 
educational curriculum promised in 2008, has that been produced 
or not?
    Ms. House. No. I don't think so, because as the man who was 
in charge of changing the textbooks told me when I was writing 
my book, at some level it doesn't matter what the textbooks 
say. When you close the door, the teacher is in charge, and all 
too many of the teachers are in total agreement with the more 
rigid Wahhabi philosophy that has been ingrained.
    Mr. Wilson. And it seems illogical to me the promotion of 
jihadism would create such a level of instability that would 
threaten the regime in Riyadh. Is that not correct?
    Ms. House. No, they have been very successful. As I said, 
Muhammad bin Nayef, the Crown Prince, they have been very 
successful at controlling terrorism in the kingdom since the 
2003, '04, '05 period when they had a lot of it. And now, and 
people want that stability and if repression occurs against 
some human rights advocates in the context of that most Saudis 
are sadly willing to overlook that. As Dr. Byman said, what we 
would call free speech they punish.
    Mr. Wilson. And it just seems again counterproductive, but 
hope springs eternal.
    Ms. House. Counterproductive to do what?
    Mr. Wilson. To the existence of the kingdom. That there 
would be such an extremist ideology that just could----
    Ms. House. No, as he said, it is fundamentally what gives 
the royal family their legitimacy is that we support the 
Wahhabis who are propagating the one true Islam. And they 
prefer that it be exported as they are doing in other places, 
and they control themselves, the jihadis, at home.
    Mr. Wilson. Well, I just see the instability whether it be 
Yemen or you name it, or Pakistan or Libya, wherever, Kosovo. 
But bottom line, thank goodness we have good people like 
Ambassador Roemer around.
    And Ambassador, I am really grateful. From the state of 
South Carolina, the late governor John C. West served as 
Ambassador to Saudi Arabia and worked very closely to establish 
a warm, bipartisan relationship. Can you judge the 
effectiveness of Saudi Arabia's attempt to fight terrorism 
financing? Have we seen a noticeable impact on their financing 
of groups in the region?
    Mr. Roemer. Congressman Wilson, thank you for the question. 
I would say that it is inconsistent on financial crackdowns and 
financial progress. We have probably seen since 2003 more 
progress from the Saudis than at any other time once they had 
the internal attacks and took this quite seriously.
    But I think as Dan Byman said, we often see this supported, 
ignored, and then a crackdown, and supported, ignored and a 
crackdown, and not consistent enough. The financial area is 
somewhere where I think the United States and the Treasury 
Department has been very successful at working with the Saudi 
Government in some areas, but I don't think it is consistent 
enough and I don't think it has passed through from the top 
levels of Saudi society down into the cultural and religious 
areas.
    Mr. Wilson. Well, thank goodness again that you are 
involved, and we need your guidance.
    And Mr. Byman, how would you characterize the Saudi 
counterterrorism campaign in Yemen? Has it been effective?
    Mr. Byman. Sir, for the most part the campaign has not been 
effective. They have gone into Yemen primarily to fight the 
Houthi movement there which they believe is backed, is tied to 
Iran. In my view the ties are real, but the Saudis overstate 
them considerably.
    But the Middle East, sir, as you know is a mess, and what 
makes it more confusing is the Houthis are fighting al-Qaeda in 
the Arabian Peninsula. So by fighting the group the Saudis 
believe is tied to Iran, they have given the al-Qaeda group 
more freedom of operation. Recently they have been trying to 
fight both, but that said, the big winner of the Saudi 
intervention has been al-Qaeda of the Arabian Peninsula.
    Mr. Wilson. Well, again, thank each of you for as you say a 
very complicated situation. Thank you.
    Mr. Poe. The chair recognizes the gentleman from 
California, Mr. Sherman, for 5 minutes.
    Mr. Sherman. Okay. Let me just quiz you all by a show of 
hands. How many of you believe that the House of Saud will be 
in control of Saudi Arabia 15 years from now, a monarchy under 
the House of Saud? If you think so, raise your hand.
    Ms. House. 15.
    Mr. Sherman. 15 years. Okay, we have got four hands raised. 
That is a better odds than many governments in the Middle East 
get.
    Ms. House. People are passive.
    Mr. Sherman. Second, the Saudis have said they would sell 
$750 billion of assets if we pass this law. I don't think they 
would do it, but even when they say they would do it is this to 
avoid attachment as a litigation defense strategy, or is this 
to punish and scare the United States? Why are they claiming to 
do the 750? Ambassador.
    Mr. Roemer. Congressman, I don't think they would do it. 
They didn't buy those securities in American bonds to do us a 
charitable work. They did it to make money. They are not going 
to sell it if it loses them a lot of money----
    Mr. Sherman. On the other hand you could----
    Mr. Roemer [continuing]. Opening that threat to us. I don't 
think----
    Mr. Sherman. You could say that a U.S. bond is four basis 
points better than investing in a euro bond, and then if there 
is a genuine risk that a lawsuit will lead to the attachment of 
those assets, because if there is a lawsuit I don't know 
whether the damages are only $1 billion. Maybe they are $10 
billion. Maybe with punitives they are $750 billion. So I don't 
think they would do it to punish us. I wonder whether it is a 
litigation strategy.
    Just some commentary, I mean, Saudi Arabia is a monarchy, 
so by definition you don't have the right of the people to 
control the government. So you can't have free speech because a 
lot of speakers would say that the people should control the 
government. And their human rights toward women, LGBT, and 
religious freedom is zero. Now we accept that. I mean, a Mormon 
missionary in Riyadh is, I assume, a dead Mormon missionary or 
just an imprisoned Mormon missionary. I don't know which.
    But, so I focus on, okay, we know that all about them. The 
question is are they exporting terrorism? Two ways that they 
can export terrorism, one is to the finance the people that 
actually blow things up. Here is the money today, blow 
something up tomorrow. 9/11 support, of course. That is the 
focus of the 28 pages. But the other is to finance a propaganda 
education machine designed to teach millions of people that 
blowing things up is a good idea.
    The House of Saud and the Wahhabis have an alliance that 
goes back to the 1700s. I can't fault them if they finance 
efforts to say, hey, you should strictly follow Islam. Pray 
five times a day; don't slough off and do four. But we are not 
talking about just orthodox practice. We are talking about are 
they teaching people.
    How much money is Saudi Arabia spending out of government 
money or royal money to spread Wahhabi Islam, and is there a 
form of Wahhabi Islam they can spread that is orthodox but not 
violent?
    Mr. Roemer. The answer to your first question is it doesn't 
matter much how much they are spending because it doesn't cost 
much. We found on the 9/11 Commission that the entire operation 
against the United States to pull off----
    Mr. Sherman. Oh, yes. If they were financing the people 
that blow things up you do that for small amounts of money. But 
if your goal is to change popular opinion from Rubat to Jakarta 
and to create millions of people who think that killing non-
Muslims is a good idea that can be expensive. And I know that 
others have talked about did they finance this or that 
terrorist attack. My focus is, are they financing a well 
designed propaganda effort to create millions of pro-terrorist 
thinkers? Does anybody have an idea how much they are spending 
to finance Wahhabism, and can you draw distinction between 
violent and non-violent Wahhabism or is there just one 
Wahhabism?
    Ms. House. There are lots of Saudis who would argue that 
you can draw a distinction between violent and non-violent 
Wahhabism. The late King Abdullah fired some of the senior 
religious scholars who in essence the supreme court of what is 
the right Islam. King Salman has restored one of them. So there 
are a lot of people in Saudi Arabia who do not believe in 
killing other people.
    But I think your point is well taken that it is more, in my 
view it is less the direct financing than the indirect 
promotion of a form of religion that we obviously would regard 
as intolerant.
    Mr. Sherman. I would go beyond intolerant. I mean those who 
are just orthodox----
    Ms. House. Intolerant and violent.
    Mr. Sherman [continuing]. And say bad things, who teach 
that if you have, you know, you are going to hell if you have a 
ham sandwich, that is a certain intolerance. It is when you 
start advocating blowing things up that I draw the line. I 
yield back.
    Mr. Poe. I thank the gentleman. The chair recognizes the 
gentleman from Pennsylvania, Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman. To my good friend from 
California, according to a Senate Judiciary Committee 
testimony, Saudi Arabia spends $4 billion a year on mosques, 
madrassa preachers, students, and textbooks to spread the 
Wahhabi creed, if that helps out at all.
    If I could turn to Mr. Henderson, do you think that the 
kingdom, the House of Saud, can survive without its affiliation 
to Wahhabism? Can it survive?
    Mr. Henderson. Could you just repeat the question?
    Mr. Perry. Can the kingdom, can the House of Saud survive 
without its affiliation to Wahhabism?
    Mr. Henderson. It would be a very different kingdom. 
Historically, it is a partnership between the House of Saud and 
the religious leadership.
    Mr. Perry. So is that a tepid yes? Is it, I mean so you are 
saying there is a chance? What is that?
    Mr. Henderson. I don't think--it is a hypothetical which 
I----
    Mr. Perry. Well, I guess----
    Mr. Henderson [continuing]. Never thought of it before and 
because I don't think it is within the range of realistic 
possibility.
    Mr. Perry. Okay, so it is not realistic. Because it seems 
to me the House of Saud, the Saudis have said we are now an 
unreliable partner, so to speak, because we are not able to 
protect their monarchy.
    But I would say that they have been duplicitous and 
unreliable because they have spent $4 billion a year or 
something to that effect to spread Wahhabism around the globe, 
including North America, et cetera. I mean, I have got all the 
stats here of the thousands of mosques and centers and colleges 
and, you know, 80 percent of the mosques, 1,200 mosques 
operating in the U.S. were constructed after 2001, mostly with 
Saudi financing. And it just goes on and on from there whether 
you go to Europe or wherever you go.
    That having been said, at some point as an ally, who we are 
engaged in this war on terrorism whether we like it or not 
because the war has come to our doorstep, is it too much to 
ask, I guess that is the question. Is it too much to ask for 
them to stop that? To stop it.
    Mr. Henderson. I think what you are describing is a very 
valid question. I did not recognize comments of your colleague 
Mr. Sherman in terms of defining what is journalistically known 
as Wahhabism as being necessarily violent. I think it is 
intolerant and it is a conservative and strict Islam which is--
--
    Mr. Perry. I would rather you not use the term 
``conservative'' as opposed to fundamentalist. Thank you very 
kindly.
    Mr. Henderson. Sorry, it is the British-ness in me. I am 
sorry.
    Mr. Perry. I appreciate that but it means something here.
    Mr. Henderson. Forgive me.
    Mr. Sherman. With a personal approvance, I would prefer you 
go back to the original phraseology.
    Mr. Perry. Reclaiming my time and then some, Mr. Chairman.
    Mr. Henderson. Okay. I think there is a concern amongst 
leaders of Muslim communities in other parts of the world that 
Saudi Arabia spends a lot of money bringing mosques and 
bringing teachers to their countries and introducing a stricter 
form of Islam to----
    Mr. Perry. But do they not make the connection that when 
they bring the mosques and the teachers and the teaching they 
are bringing terrorism, an ideology of terrorism and death?
    Mr. Henderson. I don't think Wahhabism has an ideology of 
terrorism.
    Mr. Perry. Okay, I appreciate your opinion.
    Ms. House, you talked about our relationship with the 
Saudis and Israel and how important it is to maintain that 
stability in the Middle East, but does that mean that the 
United States should accept the circumstances of what many 
Americans, myself included, see as Saudi Arabia support, 
material support, through the construction of mosques and the 
ideology around the world including their own neighborhood, 
should we accept that for the stability, as you put it, in our 
relationship with Israel and Saudi Arabia?
    Ms. House. Well, I think we ought to, and hopefully we do, 
continuously try to underscore to them that it is not in----
    Mr. Perry. Ma'am, with all due respect this has been going 
on for decades. At what point do we require action on their 
part? Talking is one thing, but there are terrorists running 
around the globe----
    Ms. House. Well, what kind of action can you require?
    Mr. Perry. Well, we can request that they no longer fund 
this; that they change the teaching; that they get in the game 
on this like we have to be. Is that too much to ask? And is it 
worth the stability?
    Ms. House. It is not too much to ask, but I don't know that 
it will result in a change.
    Mr. Perry. Is it too much to demand for the sake of our 
relationship?
    Ms. House. Well, what is the rest of the demand? If not, we 
are not going to protect our interest in the Persian Gulf 
anymore?
    Mr. Perry. What about our interest in our schools and our 
neighborhoods here where people are going to blow us up? What 
about those interests, or are they not important? Because they 
are coming here, they are here now.
    Ms. House. They are.
    Mr. Perry. So at what point, what is the tipping point, if 
you know?
    Ms. House. I just think--I didn't get to talk about Iran. I 
think that you are focused on Saudi Arabia today for obvious 
reasons, but they are not the only people propagating terrorism 
in the Middle East. Iran is too.
    Mr. Perry. Okay, I agree with that. But for their part, 
let's just talk their part and our relationship. Do we just 
continue to accept it without any--there is no benchmark. We 
don't see any milestones at all from my standpoint.
    Mr. Poe. The witness can answer that question.
    Ms. House. I think it is my personal view that the regime 
could do more. In history, when the old man was founding the 
country and the religious nuts, his Ikhwan, wanted to invade 
Iraq and he knew that the British did not want him to and would 
cut off his money he kept them from doing that. He in essence 
waged a war on his own troops and won. When the royal family 
chooses to lay down a marker I think they can.
    And so I believe that is why I am intrigued with what the 
young guy is doing when he talks about, and I know talk is 
cheap, but talks about moderate Islam. The young people in 
Saudi Arabia these days are not just dependent on Saudi TV. You 
can now get 90 channels of TV. You can watch anything in Saudi 
Arabia. And they are all on the internet and they all do have a 
much greater idea about what goes on in the rest of the world.
    So there is some change in the society, and I remind you 
again 70 percent of the people are under 30 years of age. It 
could be a quite different Saudi Arabia not liberal like this 
country, but it could be a quite different place in 10 years if 
the society cut off from its ability to be passive and 
dependent on the government through spending oil to give 
everybody a job and buy their loyalty which they can't afford 
anymore, if people become self-reliant which they are urging 
them to do--we have to see if this transpires--it will be, I 
think, a somewhat different society.
    Mr. Poe. I thank the witness. Mr. Rohrabacher from 
California.
    Mr. Rohrabacher. Thank you very much. We were talking about 
words, a little back and forth on words. Let me just note, 
sometimes it is discouraging to hear people use certain words 
or the inability of certain people to use words. At a time when 
radical Islamic terrorism threatens to murder tens of 
thousands, if not more, Americans, it is quite disconcerting 
that our own President can't use the term ``radical Islamic 
terrorism.'' And that needs to be looked at closely.
    In terms of the Saudis, I will have to suggest that Ms. 
House that I like your optimism, but there is a thing called 
irrational optimism. And that is when someone gets beaten in 
the head a number of times and think they can do the same exact 
thing without getting beat in the head. The Saudis have been 
financing terrorism now for 20 years at least, at least. I mean 
they are, Saudis were behind the Taliban. Saudis financed 
Pakistan and they still do, and the Taliban were financed by 
that money.
    Just what, 2 days ago there was a drone attack where we 
took out the new leader of the Taliban, and where was he? He 
was in Pakistan. And who do you think is paying his bills in 
Pakistan, the Pakistanis? They are broke. They get their money 
from Saudi Arabia. So the Saudis have been financing this 
mayhem.
    I mean, it is not just the fact that 15 of 19 of the 
terrorists that murdered 3,000 Americans on 9/11 that they were 
Saudis, but it is what the government has actually done. And 
let me ask, how many of you there believe that the royal family 
of Saudi Arabia did not know and was unaware that there was a 
terrorist plot being implemented that would result in an 
historic terrorist attack in the United States in the lead up 
to 9/11? Do you believe that the Saudi royal family did not 
know? Raise your hand if you think that.
    Oh, okay. Let me just suggest this, that--okay. We have two 
and two, I think. So you guys believe that the Saudi royal 
family may well have known there was a major terrorist attack 
coming.
    Mr. Roemer. Mr.----
    Mr. Rohrabacher. Go right ahead.
    Mr. Roemer [continuing]. Congressman, you and I go way back 
from our time together when I served up here. That is just too 
difficult of a question for somebody to raise their hand or put 
their hand down to----
    Mr. Rohrabacher. Well, it is not for me. I will raise my 
hand right here. And let me tell you something----
    Mr. Roemer. Have you read the 28 pages?
    Mr. Rohrabacher [continuing]. That within 4 months before 
9/11, I was tipped off by a very high ranking Taliban who 
happened to work with me in Afghanistan when we were fighting 
the Soviets that there was going to be, there is a plot going 
on and what do you think about this ongoing plot? And I might 
say, the Warren Commission didn't seem to--when I sent that 
information over that I had been tipped off, they did not 
follow through on it. I wonder, why?
    And so what we have here is a high level ranking member of 
the Taliban knows about this, but we don't think that the high 
ranking people in Saudi Arabia who are financing the whole 
thing didn't know about it? This is clear that the Saudis have 
been intentionally involved in the mass slaughter of Americans 
and other people in the world in a terrorist way.
    We know that they are, number one, we know that they are 
currently financing madrassa schools and they teach, what do 
they teach these kids at school? When they come out of them 
they can, yes, they can be radical Islamic terrorists, but they 
can't do anything else in the modern economy. They finance 
mosques that are preaching the worst kind of hatred. And we are 
hearing about this all the time in the Balkans where they are 
financing the worst kind of--and we have of course the direct 
finance of terrorism that we have seen directly into Saudi 
Arabia.
    And we are being told by you today that we really don't 
know if the Saudi royal family is involved in this. Well, even 
if they are aware of this they are responsible. After 9/11--
they didn't want to kill 3,000 Americans on 9/11. They wanted 
to kill 50,000 Americans on 9/11. 50,000. That is what they 
thought. When those buildings were going to come down, they 
didn't know that we could get all the people out. They were 
there for a mass slaughter of Americans.
    And we have just managed to just sort of, well, let's give 
them the benefit of the doubt whether or not the royal family 
knew about this or not. I say that the Saudi royal family has 
made itself clear that they do not deserve the benefit of the 
doubt because of all of their actions they have been involved 
in.
    And whether or not the young Saudi royal family members 
that are watching TV now are going to have an epiphany that 
Wahhabism isn't really, doesn't demand them to go out and 
attack the West, whether or not that is going to happen or not 
I don't think we can rely on that. Especially when you find 
that all of these young Islamic terrorists are springing up in 
different parts of the world including in San Bernardino, 
including at the Boston Marathon, you have these people who 
have been exposed to Western society but they have also been 
treated to a very high dose of Wahhabi radical Islamic 
philosophy that leads them to commit these terrorist acts.
    It is either we are going to face reality or there is going 
to be more and more of our people slaughtered. And I think how 
we deal with Saudi Arabia it has either got to be realistic or 
our people are going to suffer the consequences. Thank you, Mr. 
Chairman.
    Mr. Poe. I thank the gentleman from California. I thank all 
of the witnesses for being here. I want to thank the guests in 
the gallery as well, and also want to recognize some of the 
folks from the families of 9/11 that are here today as well.
    Thank you once again, and there may be other questions we 
have. You know the routine. We put them in writing, we send 
them to you, and we expect an answer in 10 days. The 
subcommittee is adjourned.
    [Whereupon, at 4:17 p.m., the subcommittee was adjourned.]

                                     
                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
